-*
*■

.

o-im

./

oS/Zpfoi

NO: 20-CV-748

/<'0

IN THE
SUPREME COURT OF THE UNITED STATES

GEORGIA STEWART, PRO SE
PETITIONER

V.

DISTRICT OF COLUMBIA GOVERNMENT]
And MONICA PALACIO
|
RESPONDENTS
\

ON PETITION FOR A WRIT OF CERTIORARI TO
THE DISTRICT OF COLUMBIA COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

FILED
MAY 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT It g

GEORGIA STEWART, pro se
Petitioner
235 Quackenbos Street, Northeast
Washington, D.C. 20011
202-271-0780
gseeo67@gmail.com

■ V*:;

M21 NAY 28 PH

51

RECEIVED
JUN 2 - 2021
-1-

friPREftSECaUR^U^

*

QUESTION PRESENTED

1. Whether the court denied the petitioner due process of law when it counted the time it mailed a
decision and order in this matter against the time In which to reinstate a case when the decision
and final order was mailed to an incorrect address, returned to the court, and petitioner only
discovered that the decision and order was issued after checking the record electronically when
she failed to receive actual and or constructive notice of the decision and her actual address was
a matter of record.

11.

Whether the petitioner was denied due process of law when it failed to allow petitioner to
reinstate her case when the court mailed the final decision and order to a northwest address
Instead of petitioner's northeast address and failed to allow petitioner to reinstate her complaint
based on inadvertence by the clerk of the court, although petitioner's correct address was a
matter of record.

-2-

TABLE OF CONTENTS
QUESTION PRESENTED
PARTIES TO THE PROCEEDINGS.
COPORATE DISCLOSURE STATEMENT.
TABLE OF AUTHORITIES
OPINION BELOW
JURISDICTION
STATEMENT OF THE CASE
REASON FOR GRANTING THE PETITION
CONCLUSION

APPENDICES
APPENDIX 1,
Court of Appeals for the District of Columbia
APPENDIX 2,
SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
DENYING MOTION TO REINSTATE, AND MOTION TO RECONSIDER.
APPENDIX 3.
SUPERIOR COURT OF THE DISTRICT OF COLUMBIA JUDGMENT,

TABLE OF AUTHORITIES
Cases:

-4-

OPINION BELOW
The unpublished memorandum opinion of the Court of Appeals for the District of Columbia is
included herein as appendix 1.
JURISDICTION
This court has jurisdiction of this petition to review the judgment of the Court of Appeals of the
District of Columbia. The Court of Appeals for the District of Columbia issued its decision on February
26th, 2021
The Superior court of the District of Columbia had subject matter jurisdiction of this matter
jurisdiction, and venue was appropriate since all acts complained of took place in the District of
Columbia.
STATEMENT OF THE CASE
The Superior court of the District of Columbia issued a decision on or about
dismissing the Petitioner's case of defamation, on the grounds that the complaint was untimely.
However, the decision and order was sent to a northwest address, while the petitioner's address is in
northeast. Further, Petitioner's correct address was a matter of record in the court files. Petitioner
never received notice of the superior court's decision and order, since the mailing of the decision and
order was returned to the clerk of the court.
After the Petitioner failed to receive notice, and checked the court's record, Petitioner
discovered that the court had mailed its decision and order to an incorrect address, the Petitioner, filed a
motion to reinstate her complaint on the grounds that the Petitioner did not receive actual and or
constructive notice of the decision and order. Further, the Petitioner argued that since the court erred in
sending the decision and order to an incorrect address, that the decision was returned to the court,
Petitioner did not receive actual and or constructive notice and the time period should not prohibit the
Petitioner's motion as being untimely due to inadvertence on behalf of the court.

The court failed to accept Petitioner's argument and denied Petitioner motion to reinstate her
complaint and dismissed her case due to the statute of limitations.
The Court of Appeals for the District of Columbia agreed with the decision of the Superior Court
and dismissed the Petitioner's appeal.

REASON FOR GEANTING THE APPEAL
This court should grant this Petition for Cert, since in previous decisions of the court, this court
has held that the recipient is not placed on notice of a decision until the recipient actually receives
' notice or is placed on constructive notice that the decision has been issued in the case. Further this
court has held that the statute does not start to run until the party has actual and or constructive notice
of the decision. In this matter it is clear that the Petitioner did not have actual and or constructive notice
since the decision and order was returned to the court as a result of it being mailed to the wrong
address.
Further, to deprive the Petition of her ability to maintain this action would be a denial of due
process which was caused by an error by the clerk of the court. Further, when the mail was returned to
the clerk of the Court, the court had an affirmative obligation to ensure that the decision and order was
mailed to the appropriate address, and not deprive the Petition of her right to maintain this matter
before the court.
The superior court was wrong when it ruled that Petitioner's case was barred by the statute of
limitations, without considering when the Petitioner was placed on notice of the publication of the
defamation by the Respondents. However, when Petitioner filed her motion to reconsider and to
reinstate her complaint, the court used her previous erroneous decision to support her decision to deny
Petitioner's motion to reconsider and reinstate her complaint.

CONCLUSION
For the foregoing reasons, Petitioner's request the issuance of a writ of certiorari to the District
of Columbia Court of Appeals.
Respectfully,
:

&

Georgia S' ’art, pro se
Petitioned
235 Quackenbos Street, Northeast
Washington, D.C. 20011
(202)- 271-0780
gseeo67@gmail.com

